SUPREME COURT OF THE UNITED STATES
No. 20-305
PLANNED PARENTHOOD CENTER OF CHOICE, ET AL.
Petitioners,
v.
GREG ABBOTT, GOVERNOR OF TEXAS, ET AL.,
Respondents.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h),
I certify that the document contains 902 words, excluding
the parts of the document that are exempted by Supreme
Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing
is true and correct.
Executed on January 22, 2021

Candice Best

Sworn to and subscribed before me
this 22nd day of January, 2021

ti„
MARIA MAISONET
Notary Public State of New York
No. 01MA6204360
Qualified in Queens County
Commission Expires Apr. 20, 2021

